U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 7, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Daniel Ray v. United States of America,
S.Ct. No. 20-6414

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
12, 2020, and placed on the docket on November 24, 2020. The government’s response is due
on December 28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6414
RAY, DANIEL
USA

ETHAN ATTICUS BALOGH
COLEMAN & BALOGH LLP
235 MONTGOMERY STREET
STE. 1070
SAN FRANCISCO, CA 94104
415-391-0440
EAB@COLEMANBALOGH.COM

